Monthly Update Report Data (sheet 1 of 4) Version 4.0a
                Reporting Entity: Department of State - OIG
              Month Ending Date: 02/28/2010

                                                      Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau         Recovery Act        Award Type        US Indicator   Total Obligations   Total Gross      Direct or    Ordering TAFS
No.                                     TAFS                                                                   Outlays      Reimbursable
      Department of State - OIG   (19-0530 2009 \      Contracts and         Y - US        $37,608.12         $27,610
                                  2010) State - OIG - Orders (including
                                  Recovery Act         modifications)
  1                                                                                                                        Direct
      Department of State - OIG   (19-0530 2009 \      Contracts and         Y - US         $137,618
                                  2010) State - OIG - Orders (including
                                  Recovery Act         modifications)
  2                                                                                                                        Direct
      Department of State - OIG   (19-0530 2009 \      Contracts and         Y - US          $20,000           $2,835
                                  2010) State - OIG - Orders (including
                                  Recovery Act         modifications)
  3                                                                                                                        Direct
      Department of State - OIG   (19-0530 2009 \      Contracts and         Y - US         $108,308
                                  2010) State - OIG - Orders (including
                                  Recovery Act         modifications)
  4                                                                                                                        Direct
      Department of State - OIG   (19-0530 2009 \      Contracts and         Y - US         $118,799
                                  2010) State - OIG - Orders (including
                                  Recovery Act         modifications)
  5                                                                                                                        Direct
      Department of State - OIG   (19-0530 2009 \      Contracts and         Y - US          $95,137
                                  2010) State - OIG - Orders (including
                                  Recovery Act         modifications)
  6                                                                                                                        Direct
      Department of State - OIG   (19-0530 2009 \      Contracts and         Y - US         $164,159
                                  2010) State - OIG - Orders (including
                                  Recovery Act         modifications)
  7                                                                                                                        Direct
      Department of State - OIG   (19-0530 2009 \      Contracts and         Y - US           $88,574
                                  2010) State - OIG - Orders (including
                                  Recovery Act         modifications)
  8                                                                                                                             Direct
      Department of State - OIG   (19-0530 2009 \      Contracts and         Y - US           $72,249
                                  2010) State - OIG - Orders (including
                                  Recovery Act         modifications)
  9                                                                                                                             Direct
      Department of State - OIG   (19-0530 2009 \      Contracts and         Y - US           $95,137
                                  2010) State - OIG - Orders (including
                                  Recovery Act         modifications)
                                                                                                                                Direct
      Department of State - OIG   (19-0530 2009 \      Contracts and         Y - US           $95,137
                                  2010) State - OIG - Orders (including
                                  Recovery Act         modifications)
10                                                                                                                              Direct

                                          Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau        FY 2009 Non-       Total FY 2009      Total FY 2009     FY 2010 Non-       Total FY 2010     Total FY 2010
No.                                 Recovery Act        Obligations       Gross Outlays   Recovery Act TAFS     Obligations      Gross Outlays
      Department of State - OIG   (19-0529 2009)               $59,536          $59,536 (19-0529 2010) State          $24,680            $24,680
 1                                State - OIG                                           - OIG
 2
 3
 4
 5
 6
 7
 8
 9
10
Monthly Update Report Data (sheet 2 of 4) Version 4.0a
        Reporting OIG: Department of State - OIG
    Month Ending Date: 2/28/2010

                           FTE Working on Recovery
                                                                                                                                 Testimonies:
      Fiscal Year             2009              2010                  Cumulative
       Newly Hired FTE
                             0.00                  0.00                  0.00                                            Provided (monthly):        0
           (cumulative):
FTE Funded by Recovery
                             0.08                  0.03                  0.11                                          Provided (cumulative):       0
 Act Funds (cumulative):

    FTE Not Funded by
    Recovery Act Funds       0.50                  0.05                  0.55
         (cumulative):

            Complaints                 Whistleblower Reprisal Allegations                   Investigations           Audits / Inspections / Evaluations /         Training / Outreach
           Monthly Data                          Monthly Data                               Monthly Data                        Monthly Data                         Monthly Data
                                                                                                                                                                  Training Sessions
              Received:       0                           Received:      0           Opened (this month):     0        Initiated (this month):      0                                   0
                                                                                                                                                                         Provided:
                                                                                   Active (as of the end of          In Process (as of the end
                                                          Accepted:      0                                    0                                     2          Individuals Trained:     0
                                                                                               the month):                     of the month):
                                                                                                                             Completed Final
                                                                                                                                                                  Hours of Training
                                                                                         Pending Decision:    0               Published Work        1                                   0
                                                                                                                                                                         Provided:
                                                                                                                                     Products:
                                                                                                                              Priority Interim
                                                                                                                                                                 Outreach Sessions
                                                                                    Closed without Action:    0               Published Work        0                                   0
                                                                                                                                                                       Conducted:
                                                                                                                                     Products:
                                                                                             Accepted for                  Unpublished Work
                                                                                                              0                                     0
                                                                                             Prosecution:                          Products*:
                                                                                      Prosecution Denied:     0
                                                                                   Referred for Alternative
                                                                                                              0
                                                                                                Resolution:

 Cumulative Data Since 2/17/2009       Cumulative Data Since 2/17/2009             Cumulative Data Since 2/17/2009   Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                           Completed Final
                                                                                                                                                                  Training Sessions
              Received:       3                           Received:      1          Closed without Action:    0             Published Work       4                                      1
                                                                                                                                                                         Provided:
                                                                                                                                  Products:
                                                                                                                            Priority Interim
                                                                                              Accepted for
                                                          Accepted:      0                                    0             Published Work       0             Individuals Trained:     20
                                                                                              Prosecution:
                                                                                                                                  Products:
                                                                                                                         Unpublished Work                         Hours of Training
                                                                                      Prosecution Denied:     0                                  1                                      40
                                                                                                                                 Products*:                              Provided:

                                                                                   Referred for Alternative                                                      Outreach Sessions
                                                                                                              0            Cumulative Total:        5                                   0
                                                                                                Resolution:                                                            Conducted:

                                                                                        Cumulative Total:     0
Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Department of State - OIG
  Month Ending Date: 02/28/2010

       No.                      OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1            Contract/delivery order awards for performance audits by Independent Public Auditing firms (IPAs) being finalized
        2
        3
        4
        5
        6
        7
        8
        9
       10

       No.                              OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1            Complete ongoing audit of Department tracking and oversight of ARRA funding
                     Complete on-going audit of Contract Competition for International Boundary and Water Commission Construction
         2
                     Contracts (30% of State Departement ARRA funding)
         3           Begin additional performance audits covering approximately 90 percent of State Department ARRA expenditures
         4
         5
         6
         7
         8
         9
        10
Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Department of State - OIG
   Month Ending
                 02/28/2010
           Date:

                                                                                   TRAINING ACTIVITIES
                                                                                                                                           Hours of
                                                                                      Training                  Length of                  Training                 Presentation    Average
                                                 Target                                              Date of                 Number of                   Cost of
      No.              Type of Training                        Title of Training   Location (City,               Training                  Provided                  with Other    Evaluation
                                                Audience                                             Training               Participants                 Training
                                                                                       State)                    (hours)                   (length x                    OIGs         Rating
                                                                                                                                         participants)
       1                                                                                                                                             0
       2                                                                                                                                             0
       3                                                                                                                                             0
       4                                                                                                                                             0
       5                                                                                                                                             0
       6                                                                                                                                             0
       7                                                                                                                                             0
       8                                                                                                                                             0
       9                                                                                                                                             0
      10                                                                                                                                             0
      11                                                                                                                                             0
      12                                                                                                                                             0
      13                                                                                                                                             0
      14                                                                                                                                             0
      15                                                                                                                                             0
                                                                                                                 TOTAL                 0             0

                                             OUTREACH ACTIVITIES
                                                Number of
                                              Organizations                          Outreach
                    Organization to which                     Description of                          Date of
      No.                                     Represented                          Location (City,
                     Outreach Provided                           Outreach                            Outreach
                                               at Outreach                             State)
                                                 Session
       1
       2
       3
       4
       5
       6
       7
       8
       9
      10
      11
      12
      13
      14
      15
